           WRITTEN STATEMENT OF J. RUSSELL GEORGE
                      INSPECTOR GENERAL
      TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
              BEFORE THE HOUSE WAYS AND MEANS
                  SUBCOMMITTEE ON OVERSIGHT
                          JUNE 29, 2005

Introduction

Chairman Ramstad, Representative Lewis, and Members of the Subcommittee,
thank you for the opportunity to discuss with you today a particularly troublesome
tax administration issue: tax refund fraud committed by Federal and State
prisoners.

In response to a request by this subcommittee, the Treasury Inspector General
for Tax Administration is conducting an audit of the extent of prisoner refund
fraud and IRS efforts to combat it. While our work is ongoing, we are able to
draw some conclusions at this point and recommend solutions to this growing
problem.

Prisoners, like all other taxpayers, have a legal obligation to pay their taxes and
have the legal entitlement to a refund of overpaid taxes. This civic duty and legal
right only partially explain why the IRS received approximately 455,000 tax
returns from prisoners last year. Another explanation for some of these tax
returns is that prisoners have found ways to exploit weaknesses in IRS
operations in order to receive refunds to which they are not entitled. The IRS
must close gaps in its policies and procedures to prevent this affront to the
American public from continuing to expand.

Findings on Prisoner Tax Fraud

The number of tax fraud schemes perpetrated by prisoners is on the rise.
According to the IRS, prisoners filed approximately 4,300 fraudulent returns in
processing year 2002. Two years later, that number quadrupled to over 18,000.
It is worth noting that these figures only account for those prisoner returns that
the IRS identified as fraudulent during tax return processing. During the past
three years, prisoners have filed over 1.3 million returns, so the risk that
fraudulent returns are slipping through the system undetected is great.

During the course of our review, we obtained data from the IRS Criminal
Investigation Division (CI), the IRS entity responsible for detecting fraudulent
returns. The chart on the following page provides statistics on the total number
of returns filed and the refund amounts claimed by all individuals and by
prisoners as of April 1, 2005.
                                                                Processing Year (PY) 2004
              Number of Returns                             Total            Prisoner                 Percent

    Total Returns Filed                                     130,459,600            Not Available1
    Refund Returns Filed                                    106,420,000                 455,097         0.43
    Returns Reviewed for Potential Fraud                        463,222                  36,126         7.80

    False Refund Returns2                                        118,075                    18,159      15.38
    False Refunds Stopped                                         81,922                    14,033      17.13
    False Refunds Issued                                          36,153                     4,126      11.41

              Amount of Refunds

    Refunds Requested                               $ 227,573,835,000         $   758,951,862           0.33

    False Refunds                                   $       440,773,403       $    68,179,070           15.47
    False Refunds Stopped                           $       309,961,554       $    53,456,963           17.25
    False Refunds Issued                            $       130,811,849       $    14,722,107           11.25

    Average False Refund                            $              3,733      $          3,755
    Average False Refund Stopped                    $              3,784      $          3,809
    Average False Refund Issued                     $              3,618      $          3,568

This chart shows that a disproportionately higher percentage of fraudulent
returns are filed by incarcerated individuals. Although prisoner returns account
for only .43 percent of all refund returns, they account for over 15 percent of the
fraudulent returns identified by the IRS. It is difficult to be surprised that those
already imprisoned for committing a crime are more prone than the general
public to commit another crime.

Of particular concern is the fact that the IRS frequently pays refunds on returns it
has identified as fraudulent. In 2004, the IRS paid 36,000 refunds on returns that
it determined to be fraudulent; 4,100 of these refunds were issued to prisoners.
Stated another way, if a taxpayer submitted a fraudulent return in 2004 – and the
IRS determined that return to be fraudulent – that taxpayer still had a 31 percent
chance of receiving a refund. Taking into account that the average false refund
amount last year was about $3,600 per return, the IRS paid $131 million in
refunds on returns that it identified as fraudulent. Of this amount, $14.7 million
was erroneously paid to prisoners.


1
  The IRS cannot identify the total number of prisoner returns filed because the prisoner data file is only
matched against refund returns.
2
  This could include false returns identified during IRS returns processing by the Electronic Fraud
Detection System (EFDS), which is an automated system that is used by personnel in Fraud Detection
Centers (FDCs) to review potentially fraudulent tax returns. False returns can also be identified with the
assistance of prison officials, informants, or other sources.


                                                        2
Prisoners who cheat the tax system use a variety of tactics. For example, two
Louisiana inmates were sentenced this past March for using the names and
Social Security Numbers (SSNs) of other inmates to file fraudulent tax returns.
This scheme eventually resulted in their conviction for conspiring to receive
$266,000. In Missouri, two former inmates, while in prison, charged fellow
prisoners $100 each to prepare a false tax return. These returns were then filed
by co-conspirators outside of the prison to obtain illegitimate refunds. In April
2005, one was sentenced to one year and nine months in prison; the other was
sentenced to two years and six months.

As this last example illustrates, prisoners often use individuals outside of prison
to perpetrate fraud. Although the current IRS management information system
cannot report specific information on how may prisoners use the names of other
individuals to commit fraud, our analysis of 18,343 false refunds involving
prisoners for the 2004 processing year:3

         •   Identified 1,193 schemes claiming $68.7 million in false refunds; and,
         •   Included 113,797 returns, not identified as prisoner returns, claiming
             an additional $380.8 million in refunds.4

These figures demonstrate that prisoners often work collaboratively with persons
outside of prison in sophisticated and complex refund fraud schemes, as
evidenced by the large number of false returns relating to prisoner schemes but
not identified as prisoner returns.

At this point during our review, we can confidently state that prisoner tax fraud is
rising, prisoners file a disproportionately higher percentage of fraudulent returns
than the general public, the IRS frequently pays refunds on tax returns despite
identifying these returns as fraudulent, and the IRS lacks adequate data to
ascertain the extent of the prisoner fraud problem.

IRS Process for Detecting Fraudulent Refund Returns

As these findings demonstrate, prisoner tax fraud is a serious problem. To fix
this problem, the IRS must improve its ability to identify fraudulent prisoner
returns.

Currently, the IRS sends all refund returns through its Electronic Fraud Detection
System (EFDS) before issuing a refund. If the filer is a prisoner according to
information provided by Federal and State prison officials, the return is flagged

3
  In the chart on page two, 18,159 false refunds were reported by CI as of April 1, 2005. Since that date,
this number has risen to 18,343 false refunds because false returns are continuously being identified.
4
  Returns not identified as prisoner returns could actually be submitted by prisoners but not identified as
prisoners due to the incompleteness of the prisoner file. There could also be situations of prisoners using
the Social Security Numbers of non-prisoners. Similarly, there could be only a few returns identified as
prisoner returns in a scheme with many other non-prisoner returns.


                                                      3
with a prisoner indicator. The prisoner indicator is one of several elements used
by the EFDS to assign a data mining score to tax returns. The higher the score a
return receives, the greater the likelihood that the return is fraudulent.

In general, returns that receive a high data mining score must also request a
refund that exceeds a certain threshold established by CI to be selected for
further screening. The number of returns selected for screening is then based on
the amount of resources available to screen the returns. Thus, detection of false
refunds is a function of the data mining score, the threshold established for
screening, and the amount of CI resources. These three criteria determine how
many false refunds are identified and how many false refunds slip through the
processing system undetected.

The IRS’ Fraud Detection Centers are the frontline for detecting fraudulent refund
schemes. In processing year 2004, these Centers physically screened only
36,126 of the 455,097 prisoner returns filed. As we continue our analysis of this
data, we will evaluate how – with improved prisoner data and an invigorated
commitment by the IRS to aggressively pursue prisoner refund fraud – the IRS
can identify more high-risk prisoner returns.

Reasons False Refunds Were Erroneously Paid

As previously noted, the IRS often issues refunds on tax returns it eventually
identifies as fraudulent. The IRS attributed many of its erroneous payments of
fraudulent tax refunds to the short time constraints it sets for itself. Part of its
customer service philosophy is to pay tax refunds promptly since the vast
majority of tax refunds are legitimate. This attempt to pay refunds promptly
generally gives the IRS about three weeks to prevent a fraudulent refund from
being paid. During that time, CI evaluates the return for indicators of fraud,
verifies any wage and withholding information with employers, and scans other
potentially fraudulent returns for similar return characteristics, such as a common
employer, street address, or bank account. The IRS must work quickly within
this time frame to ensure legitimate refunds are paid promptly.

Paper returns in particular present the IRS with unique challenges. The CI
function must physically review the return to collect return information that is not
entered electronically. CI has even less time on paper returns that request an
electronic direct deposit of the refund into a bank account. Prisoners may have
already discovered this weakness in the system, since over three-fourths of all
fraudulent refund returns filed by prisoners in processing year 2004 were filed by
paper instead of electronically.

We obtained a computer extract from CI that described the reason why a refund
was not stopped despite being identified as fraudulent. As of May 4, 2005, the
record contained 4,261 records of false refunds issued to individuals identified in




                                         4
the 2004 prisoner file. The following table shows the five most common reasons
the IRS listed for issuing refunds on false returns.5

                                                                        Total Refunds
                          Reason Refund Not Stopped                      Not Stopped
                 Identified after Cycle Cutoff6                                   2196
                 Other7                                                             786
                 No Selection8                                                      462
                 Tax Examiner Error9                                                320
                 Prior Year Return10                                                128
                 Total Top Five Reasons                                           3,892



The chart above shows that CI chose the category of “Other” or “No Selection”
for why refunds were erroneously issued to prisoners in over 29 percent of its
cases. While some use of these reasons is legitimate, TIGTA believes they
should be used sparingly to enable CI to identify the actual reason why an
erroneous refund was issued and enable CI to correct deficiencies in its system.

CI conducted an additional analysis of the reasons tax refunds were not stopped
despite being identified as fraudulent, and identified the causes in the chart on
the next page.11




5
  These five reasons were given as explanations for 91% of the refunds issued to prisoners who submitted
fraudulent returns.
6
  “Identified after Cycle Cutoff” means that the tax refund, after going through various computer routines at
a Submission Processing Center to perfect the data for processing, was issued before certain additional
analyses could be completed that would have identified the return as fraudulent.
7
  “Other” is a generic catch-all category that TIGTA believes should be used sparingly, as it may prevent
CI from identifying the actual reason a false refund was issued and impair its ability to improve its system.
The CI function advised that time constraints during processing may have led to the high use of this
category.
8
  “No Selection” is also a generic catch-all category that TIGTA believes should be used sparingly, as it
may prevent CI from identifying the actual reason a false refund was issued and impair its ability to
improve its system. The CI function advised that time constraints during processing may have led to the
high use of this category.
9
  “Tax Examiner Error” means that an IRS employee may have entered or interpreted data incorrectly, or
otherwise possessed information to prevent a refund from being issued, but did not stop the refund.
10
   “Prior Year Return” includes returns that were processed in the previous year but were detected during
the current processing year. Some of these returns are identified at a later date due to an informant or the
return being associated with a current year scheme.
11
   This analysis is based on 4,000 refunds; therefore, it cannot be precisely compared with the data we
obtained on the 4,261 refunds identified in the 2004 prisoner file. Although CI’s additional analysis
provides a better indication of the reason refunds were issued, CI based some of its assumptions on data
analysis, not actual reviews of cases.


                                                     5
                                                                         Total Refunds
                          Reason Refund Not Stopped                       Not Stopped
                  Return Preparer Case12                                             156
                  Prior Year Return13                                                179
                  Did Not Meet Data Mining Tolerances14                              903
                  Untimely Receipt of Paper Return15                                 694
                  Direct Deposit Refund of Paper Return16                            576
                  Volume of ELF Scanning (resource issue)17                          428
                  Human Detection, Data, or Input Errors18                         1,064
                   Total Refunds Issued                                            4,000



IRS Efforts to Combat Tax Refund Fraud

With the dramatic increase in fraudulent refund returns filed by prisoners, one
would expect a strong, coordinated response from the IRS to combat these
schemes. However, until recently, the IRS did not have an overall,
comprehensive approach to working with Federal and State prisons to address
prisoner tax fraud. In some locations, prisoner tax refund fraud was not
considered to be a prevalent issue. Further, according to CI management, some
U.S. Attorney’s offices are reluctant to pursue these investigations, believing it is
not a prudent use of resources, particularly if the person is already incarcerated
and another conviction would not likely yield additional punitive sanctions.

Instead of an overall, comprehensive approach, our review has discovered that
the IRS let its 10 Fraud Detection Centers located around the country establish
their own policies and procedures for working with prisons in their region. These
Centers coordinated to varying degrees with the prisons in their area. For
example, we discovered that 4 of the 10 Fraud Detection Centers have not
established any procedures to ensure that prison mail addressed to the IRS is
sent directly to these Centers for screening. As a result, this mail is received by

12
   CI management explained that refunds are usually not stopped in return preparer cases because the focus
of the investigation is the return preparer, not the individual taxpayers who, knowingly or unknowingly, are
party to fraud.
13
   Prior year returns were processed in the prior year but detected during the current processing year.
14
   This category indicates that the return did not meet data mining tolerances when it was processed.
However, analysts later determined the return to be false upon reviewing a subsequent return with similar
characteristics.
15
   In order to identify the return as fraudulent, analysts must review the paper return; however, analysts did
not receive the paper return in time to review it and stop the refund.
16
   Similar to the previous category, analysts must obtain the paper return to determine its legitimacy. In
these cases, the refunds were already deposited electronically into bank accounts before the refund could be
prevented.
17
   In citing this reason, the CI function assumed that the volume of electronic filing scanning was so large
that analysts could not review them in time to determine whether they were false.
18
   This category includes IRS employees who entered or interpreted data incorrectly, or otherwise
possessed information to prevent a refund from being issued, but did not stop the refund.


                                                      6
the IRS just like any other tax return, and the IRS must rely on its incomplete and
inaccurate prisoner database to identify the filer as a prisoner. Furthermore, 8 of
the 10 Centers do not share information with State tax revenue authorities that a
prisoner has been caught filing a fraudulent Federal tax return. Sharing such
information would help ensure that prisoners caught cheating the IRS would not
be allowed to cheat the State revenue authorities with impunity.

Despite the IRS’ inconsistent and incomplete approach to address prisoner
refund fraud, the CI function has conducted criminal investigations on certain
prisoners and prisoner refund schemes. Our comparison of the prisoner
database to the March 2005 Criminal Investigation Management Information
System (CIMIS)19 shows that the CI function had initiated 312 primary
investigations on schemes involving 3,069 prisoner returns. From 75 of these
primary investigations, CI has initiated 128 subject investigations. We will
continue to analyze this data and provide the results of our analysis in a report to
the IRS.

Proposed Actions to Enhance Tax Refund Fraud Detection

The Criminal Investigation Division has taken some steps to address the
concerns expressed by this subcommittee and in response to our review.
Management of CI has proposed several legislative and procedural remedies
that will improve coordination with Federal and State prisons. CI has also
requested computer programming changes to provide more time to verify tax
return information and to pinpoint common characteristics of prisoner refund
schemes. If properly implemented, I believe these actions will strengthen the
ability of the IRS to detect and deter prisoner refund fraud.

Need for Accurate and Complete Prisoner Information

I want to emphasize that the IRS is not solely responsible for confronting this
problem. Federal and State prison officials should be required to transmit
complete and accurate information on the prisoner population to the IRS. The
IRS uses the data submitted by Federal and State prison officials in its Electronic
Fraud Detection System. As with any computer-based analytical tool, the ability
to quickly and accurately identify potential tax refund fraud is only as good as the
data used in such analyses, and we have found that much of this data is
inaccurate and incomplete.

During the 2004 processing year, we estimate that approximately 550,000, or
almost 20 percent, of the 2.8 million prisoner records the IRS received contained
incomplete or inaccurate information. These records were inadequate for the
following reasons:

19
  CIMIS is a database that tracks the status and progress of IRS criminal investigations and the time
expended by special agents. It is also used by IRS management as a basis for national and local resource
and inventory decisions.


                                                    7
   •   About 255,000 records did not have a valid SSN. For example, over
       252,000 of these records listed 000-00-0000 as the SSN.
   •   About 118,000 records had duplicate SSNs.
   •   Almost 43,000 records were invalid because they exceed the highest SSN
       issued by the Social Security Administration.
   •   About 134,000 records were not in the 2004 prisoner file because the IRS
       required all prisoner information to be submitted by August 2003, in order
       to have time to perfect the data and enter it into IRS computer systems.
       This early deadline excluded individuals incarcerated between September
       1, 2003, and December 31, 2003.

The inaccuracies in the prisoner file prevent the IRS from detecting all false
refund returns filed by prisoners. The IRS must have a current and accurate
prisoner file to alert CI to prisoner-filed returns. An improved prisoner file would
also enable the IRS Submission Processing function to stop false prisoner
refunds on those returns that do not meet CI criminal investigative criteria before
they are issued. If Congress were to require Federal and State prisons to
provide accurate Social Security Numbers and other prisoner information in a
consistent format, the IRS could obtain the information much later in the year and
include it in the prisoner database for the upcoming tax season. This
improvement to information quality would help prevent prisoners from bilking the
Government out of millions of dollars.

Conclusion

Mr. Chairman and members of the subcommittee, I appreciate the opportunity to
discuss this important tax administration issue today. As I stated initially, our
review of the extent of prisoner fraud and the effectiveness of IRS efforts to
prevent it is still ongoing, but we will continue to work with the IRS and this
subcommittee as we near completion. I will be happy to answer any questions
you have at the appropriate time.




                                         8
